/s/ Don Colleluori

EXHIBIT “A”
David R. Adams
Trustee, Adams Family Living Trust
Anna M. Adams
Trustee, Adams Family Living Trust
Jesse Boone
Successor in interest to Michael Aitkens
Mark Butler
Mountain West IRA, Inc. f/b/o Mark Butler IRA
Paul W. D’Anna
Co-Trustee of the D’Anna Revocable Trust
Lee J. D’Anna
Co-Trustee of the D’Anna Revocable Trust
Eckersley, LLC
Bens Future Freedom, LLC
June Mayer Morris, Trustee of the June Mayer Morris Living Trust
Successor to Capital City Holdings LLC
An-D'Rue Holdings, LLC
DUB, LLC
Wells Fargo Bank, N.A.
Burkton Real Estate, LLC
TMO and Family, LLC
Jody A. Kimball
Troy A. Kohler
Michael L. Kohler
Marilyn Hall
L. Ann Krulic, Trustee of the Krulic Living Trust
Scott Loomis
Successor Trustee of The Craig R. Loomis Insurance Trust
Mark Lundquist
Co-Trustee of the Mark and Leanne Lundquist Family Trust

-1-

EXHIBIT “A”
Leanne Lundquist
Co-Trustee of the Mark and Leanne Lundquist Family Trust
Samuel Martone
Trustee of the Samuel J. Martone and Laurie M. Martone Living Trust
Laurie Martone
Trustee of the Samuel J. Martone and Laurie M. Martone Living Trust
Robert D. Morris
Heidi L. Morris
Thomas E. Niederee
Laurie A. Niederee
MCP Holdings, Inc.
Chris Price
Chez Nous Too, LLC
Mark E. Rinehart
Craig Smith
Jill Smith
Howard N. Sorensen
Trustee, The Howard and Lisa Sorensen Family Trust
Lisa A. Sorensen
Trustee, The Howard and Lisa Sorensen Family Trust
Ralph Richard Steinke
Susan C. Steinke
Max W. Swenson
Donna M. Swenson
Richard D. Waite
Martha L. Waite
M. Richard Walker
Co-Trustee of The M. Richard Walker and Kathleen H. Walker Family Trust

-2-

EXHIBIT “A”
Kathleen Walker
Co-Trustee of The M. Richard Walker & Kathleen H. Walker Family Trust
T&L Whitaker Investment, Ltd.

-3-

